<html>
<title> - UNLOCKING THE SECRETS OF THE UNIVERSE: GRAVITATIONAL WAVES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 UNLOCKING THE SECRETS OF THE UNIVERSE:
                          GRAVITATIONAL WAVES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           February 24, 2016

                               __________

                           Serial No. 114-61

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                               __________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-831PDF                       WASHINGTON : 2017                         
________________________________________________________________________________________             
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="baddcad5fad9cfc9ced2dfd6ca94d9d5d794">[email&#160;protected]</a>  
             
             
             
             
             
             
             COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LAHOOD, Illinois
                            C O N T E N T S

                           February 24, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    11
    Written Statement............................................    13

Statement by Representative Bill Foster, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    15
    Written Statement............................................    13

                               Witnesses:

Dr. Fleming Crim, Assistant Director, Directorate of Mathematical 
  and Physical Sciences, National Science Foundation
    Oral Statement...............................................    18
    Written Statement............................................    20

Dr. David Reitze, Executive Director of LIGO, California 
  Institute of Technology
    Oral Statement...............................................    27
    Written Statement............................................    29

Dr. Gabriela Gonzalez, Professor of Physics and Astronomy, 
  Louisiana State University
    Oral Statement...............................................    36
    Written Statement............................................    38

Dr. David Shoemaker, Director, LIGO Laboratory, Massachusetts 
  Institute of Technology
    Oral Statement...............................................    45
    Written Statement............................................    48
Discussion.......................................................    54

             Appendix I: Answers to Post-Hearing Questions

Dr. Fleming Crim, Assistant Director, Directorate of Mathematical 
  and Physical Sciences, National Science Foundation.............    82

Dr. David Reitze, Executive Director of LIGO, California 
  Institute of Technology........................................    83

Dr. Gonzalez, Professor of Physics and Astronomy, Louisiana State 
  University.....................................................    85

Dr. David Shoemaker, Director, LIGO Laboratory, Massachusetts 
  Institute of Technology........................................    87

 
                 UNLOCKING THE SECRETS OF THE UNIVERSE:
                          GRAVITATIONAL WAVES

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:07 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order,
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing titled ``Unlocking the Secrets 
of the Universe: Gravitational Waves.'' I'll recognize myself 
for five minutes for an opening statement and then the Ranking 
Member.
    Last September, American scientists in Louisiana and 
Washington State detected a signal from an event so powerful 
that it sent a detectable ripple 1.3 billion light years ago 
through time and space to Earth. Albert Einstein was right: 
gravitational waves do exist. A century ago, Einstein developed 
his theory of general relativity. He then predicted that 
intense energy events, like the collision of black holes, could 
cause such disruption to the universe that they would emit 
waves that distort time and space much like the ripples on a 
pond caused by a thrown rock.
    After decades of effort, scientists have now observed 
Einstein's theory in practice. They witnessed the effect of two 
black holes colliding, which released 50 times the energy of 
all the stars in the universe put together that emitted a 
gravitational wave across the universe that was, for the first 
time, detected on Earth. The discovery was the work of hundreds 
of scientists, decades of ingenuity and innovation, and the 
commitment of the United States through the National Science 
Foundation.
    Forty years ago, a group of scientists began to design an 
experimental system to detect gravitational waves on Earth. 
Then they submitted a proposal for funding to the National 
Science Foundation. In 1990, the National Science Board 
approved funding for the project. Since that time, NSF has 
supported development of the Laser Interferometer 
Gravitational-Wave Observatory, or LIGO. This included 
construction and upgrades, operations, and research awards to 
scientists who study LIGO data. Today we will learn more about 
the value to America of that investment. We will also hear 
about the monumental success that has resulted from advances in 
physics, astronomy, engineering, and computer science. The 
NSF'' support for the LIGO project is a great example of what 
we can achieve when we pursue breakthrough science that is in 
the national interest.
    We have the privilege today of hearing from a panel of 
witnesses who helped make the discovery. They are leaders of 
the 1,000 scientists and 80 scientific institutions that make 
up the global LIGO Scientific Collaboration. We look forward to 
hearing more about the discovery, what it means for American 
science and innovation, and what new research and applications 
may be generated by this breakthrough. With this discovery, we 
embark on a new and exciting time for American physics and 
astronomy, and we move closer to a better understanding of the 
universe.
    This is a quote by Dr. Kip Thorne, a renowned American 
physicist and one of the founders of LIGO: ``With this 
discovery, we humans are embarking on a marvelous new quest: 
the quest to explore the warped side of the universe, objects 
and phenomena that are made from warped space-time. Colliding 
black holes and gravitational waves are our first beautiful 
examples.''
    Congratulations to the scientists on their great discovery.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Texas, Eddie Bernice Johnson, is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman. I'm 
delighted that you're having this hearing today. It is 
gratifying to be hearing about a very exciting scientific 
breakthrough.
    I want to congratulate each of the panelists, and welcome 
you, for your role in anything that you participated when it 
comes to LIGO. Thank you for being here this morning to talk 
about what this achievement means for science, and for our 
Nation, and about the long-term commitment to high-risk, basic 
research that made it all possible.
    The story of the Laser Interferometer Gravitational-Wave 
Observatory is a story about the talent, creativity, and 
perseverance of U.S. scientists and engineers. It is a story 
about the 65-year commitment of the National Science Foundation 
to high-risk, basic research. I truly believe that a Nobel 
Prize will be coming. And it is a story about what we stand to 
lose as a Nation if we fail to maintain faith in our 
scientists, and in the scientific process exemplified by the 
National Science Foundation that is the envy of nations around 
the world.
    When LIGO was first proposed by a small group of physicists 
from MIT and Cal Tech, many scientists responded, ``You're 
crazy. It is not possible to build a gravitational-wave 
detector.'' Many of the scientists at the National Science 
Foundation and the National Science Board also quietly wondered 
if it was possible. But the project leaders presented a 
compelling plan, and the Foundation, then under the 
Administration of George H.W. Bush, decided to take the gamble. 
Because that is what the National Science Foundation does. It 
supports high-risk, but potentially high-reward, basic science 
that nobody else will do.
    Today, we celebrate the scientific and technological 
achievement that LIGO represents. However, the path to this 
point was not smooth. When the National Science Foundation 
first proposed to build LIGO, debates raged in the scientific 
community and in Congress. Many scientists were concerned about 
protecting funding for competing physics and astronomy projects 
that were also important. They were also concerned about 
squeezing resources for research grants. Those concerns were 
understandable, and eventually led to the creation of a 
separate facilities construction account at the Foundation.
    Members of Congress, including Members of this Committee, 
were also skeptical. This was a very expensive project, and 
some scientists doubted that it was technologically feasible. 
Members also wondered, what exactly are gravitational waves and 
why should we care? Throughout these debates and despite the 
elimination of funding by Congress in the first year that LIGO 
was proposed and the attempt to do so again in the second year, 
the National Science Foundation kept faith in the scientists 
and in its own mission.
    Notwithstanding some of the debates we have had here in 
recent weeks, the primary purpose of the National Science 
Foundation is not to strengthen national security, or improve 
public health, or even to grow our economy. To be sure, those 
are all critically important outcomes of National Science 
Foundation investments in basic research across all fields of 
science and engineering, and some NSF-funded research has 
intended applications even at the proposal stage. However, the 
essential, core purpose of the National Science Foundation is 
to promote the progress of science, whether or not there is a 
foreseeable or intended application, and to train the next 
generation of U.S. scientists and engineers. And it is clear 
that the Foundation's bold investments in LIGO, driven by that 
core purpose, have led to a major scientific breakthrough.
    Today's hearing serves as a reminder not just of how 
talented U.S. scientists and engineers are, but of why we must 
work hard to maintain our status as the best country in the 
world to do science by continuing to fund NSF and encourage 
high-risk taking. This is a lesson that we should apply to the 
entire agency, and not just to certain fields of our choosing.
    Twenty-five years ago, many Members of Congress did not 
want to fund the search for gravitational waves. After all, how 
was that in the national interest? But enough Members did dare 
to imagine, and here we are today.
    Again, I want to thank you and congratulate the witnesses, 
and now I will yield the remainder of my time.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mrs. Johnson. I might point out 
that 25 years ago in 1994, we had a Republican-controlled 
Congress who took the lead in funding LIGO, and I know it was a 
bipartisan effort, but it's nice to see that reach over the 
span of 25 years.
    Ms. Johnson. Could I yield to Mr. Foster?
    Chairman Smith. Sure. We will recognize the gentleman from 
Illinois, Mr. Foster, for one minute.
    Mr. Foster. Thank you, Mr. Chairman, and thank you to the 
witnesses for coming here today to talk about this very 
exciting discovery. As the only Ph.D. scientist in Congress, 
I'm probably more excited about this than most others who've 
come to hear this today.
    A century after Einstein theorized the existence of 
gravitational waves, 50 years after Rai Weiss began thinking of 
an interferometric gravitational-wave detector as part of a 
class exercise at MIT, 40 years after the spin-down of orbiting 
neutron stars starting giving the first hints that 
gravitational waves were being emitted from astrophysical 
sources, and 25 years after the National Science Foundation 
began courageous and sustained funding for an international 
collaboration of hundreds of scientists to begin constructing 
this large and technically risky project, physicists have 
spectacularly confirmed Einstein's theory. This is a discovery 
that will live on in the science textbooks forever.
    And with this discovery, we have opened a new window onto 
the universe and we have verified that our new telescope is 
working and now the fun begins.
    Thank you, and I yield back.
    [The prepared statement of Mr. Foster follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Foster.
    I keep telling Dr. Foster that my going off to college 
thinking I was going to be a physics major counts almost as 
much as his Ph.D. but not quite.
    Our first witness today is Dr. Fleming Crim, Assistant 
Director, Directorate of Mathematical and Physical Sciences at 
the National Science Foundation. Dr. Crim joined NSF in 2013. 
Prior to his time at NSF, he was the John E. Willard and 
Hilldale Professor in the Department of Chemistry at the 
University of Wisconsin-Madison, where his research group used 
lasers to understand chemical reaction dynamics that occur in 
gases and liquids. Dr. Crim has lectured around the world and 
published more than 150 papers. He received his bachelor's 
degree from Southwestern University and his Ph.D. from Cornell 
University.
    Our second witness today is Dr. David Reitze, Executive 
Director of the Laser Interferometer Gravitational-Wave 
Observatory at the California Institute of Technology. Dr. 
Reitze's extensive work in the area of experimental 
gravitation-wave detection dates back to the mid-1990s. He has 
authored or co-authored over 250 peer-reviewed publications. 
Dr. Reitze is currently a Fellow of the American Physical 
Society and the Optical Society, and has served on numerous 
scientific advisory and program committees within the physics 
and optics communities. Dr. Reitze received his Ph.D. in 
physics from the University of Texas at Austin.
    Our third witness today is Dr. Gabriela Gonzalez, Professor 
of Physics and Astronomy at Louisiana State University, where 
her research involves the detection of gravitational waves with 
interferomic detectors. Dr. Gonzalez was a founding member of 
the LIGO scientific collaboration and has participated in the 
commissioning of the LIGO detector at the Livingston 
Observatory. Dr. Gonzalez received her master's degree from the 
University of Cordoba in Argentina and her Ph.D. from Syracuse 
University.
    Our final witness is Dr. David Shoemaker, Director of the 
LIGO Laboratory at the Massachusetts Institute of Technology, 
where his research focuses on instrumentation to enable the 
observation of gravitational radiation by precision measurement 
techniques. Dr. Shoemaker's work in the field of gravitational-
wave detection began in 1980. He spent several years at Max 
Planck in Garching, Germany, and the CNRS in Paris, France, 
where he helped to develop specific technologies for 
gravitational-wave detection. Dr. Shoemaker has served on 
numerous scientific advisory and program committees for the 
NSF, NASA, and for the European Gravitational Wave Observatory. 
He received his master's degree in physics from MIT and his 
Ph.D. in physics from the University of Paris.
    We welcome you all. We really appreciate your efforts in 
being here. You all are the experts. You led the way in one of 
the greatest scientific discoveries that we will ever hear 
about. What really caught my attention was the energy release 
being far beyond the energy of all the stars of the universe. 
That tends to rivet one's not only attention but imagination, 
so we appreciate you all being here, appreciate your expert, 
and Dr. Crim, we'll begin with you.

                 TESTIMONY OF DR. FLEMING CRIM,

                      ASSISTANT DIRECTOR,

                  DIRECTORATE OF MATHEMATICAL

                     AND PHYSICAL SCIENCES,

                  NATIONAL SCIENCE FOUNDATION

    Dr. Crim. Thank you, Mr. Chairman.
    Before I begin my remarks, I would like to show a short 
video clip, just over one minute, on LIGO and its detection of 
gravitational waves.
    [Video shown]
    Chairman Smith. Thank you. We won't count that against your 
five minutes.
    Dr. Crim. Thank you very much. Mr. Chairman, Ranking Member 
Johnson and members of the Committee, I appreciate your 
interest in the historic observation of gravitational waves by 
the Interferometer Gravitational Wave Observatory.
    My colleagues will describe the exciting science but I will 
spend a few minutes describing the role of the National Science 
Foundation and the rewards of fundamental research.
    Although Albert Einstein predicted gravitational waves in 
1916, their direct observation was a daunting, seemingly 
impossible task. Nonetheless, the possibility of opening a new 
window on the universe was so tantalizing that NSF began 
funding research on prototype laser interferometers in the 
1970s.
    In the 1980s, the NSF committed almost $300 million to a 
group led by Kip Thorne and Ron Drever of Cal Tech and Rainer 
Weiss of MIT to transform these prototypes into a full-blown 
gravitational-wave observatory. This effort driven by 
brilliance, vision, enthusiasm, experimental prowess and deep 
theoretical insights persuaded the NSF, the National Science 
Board, and Congress to take a risk.
    Even though NSF had never funded anything on such a scale, 
the potential for transformative science was worth it. LIGO was 
the first of our Major Research Equipment projects, now known 
as MREFC projects. It illustrated the importance of distinct 
funding for instruments of this scale and prompted fruitful 
discussions with Congress. NSF embraced a new role in funding 
large, high-risk, high-reward research platforms serving the 
Nation by betting boldly on the future.
    The National Science Board approved construction of LIGO in 
1990, and following Congressional approval, work began in 1994. 
LIGO started operations in 2002, allowing researchers to gather 
data and develop innovative technologies.
    One of the primary motivators for this arduous research was 
the question of whether it was possible to build an instrument 
of the requisite sensitivity. Indeed, the answer turned out to 
be yes. Thus, in 2008, NSF and Congress understood the 
compelling case and approved the $200 million of funding for 
constructing the next generation Advanced LIGO, the instrument 
that detected a gravitational wave last fall.
    That gravitational wave arose in the collision and merger 
of two black holes approximately 1.3 billion years ago. The 
wave propagated to the detectors in Livingston, Louisiana, and 
Hanford, Washington, and produced a chirp that opened a new 
window on the universe.
    This discovery is a beginning, not an end. It marks the 
birth of gravitational-wave astronomy, a new tool for 
understanding the cosmos.
    The really good news is that Advanced LIGO was designed to 
be three times still more sensitive and should begin 
observations with even greater reach this summer.
    The United States has led this international collaboration. 
However, continued close cooperation with our international 
partners is key to taking the science to the next level. New 
observational capabilities that our partners in Europe, Japan 
and India are either building or planning promise an exciting 
future.
    LIGO is a national and international collaboration in which 
cooperation drives the science and leverages precious 
resources. The LIGO scientific collaboration is a group of more 
than 1,000 scientists at universities around the United States 
and in 16 countries. I'm pleased to add, Mr. Chairman and 
Ranking Member Johnson, that 30 members of that collaboration 
come from Texas.
    Mr. Chairman, this historic measurement illustrates the 
importance of NSF and exemplifies its role in advancing 
discovery. The majesty of exploring our universe motivates this 
ambitious experiment, but as with all fundamental science, LIGO 
offers other important benefits. The science will advance 
education, inspiring students in developing the workforce our 
society requires. It has and will continue to spawn 
collaborations in engineering, computer science, and other 
fields to make the Nation more competitive. The fruits of NSF-
sponsored research drive our economy, enhance our security, and 
ensure our global leadership.
    Basic research is uncertain and risky but it is also 
revolutionary. LIGO is a striking example but not the only one. 
Fundamental science has transformed our world and will continue 
to change it in ways we have not yet imagined. All the 
contributors to LIGO--scientists, the National Science 
Foundation, the National Science Board, and Members of 
Congress--deserve to take enormous prid in our collective 
accomplishments.
    These comments conclude my testimony. I'll be pleased to 
answer questions.
    [The prepared statement of Dr. Crim follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Crim.
    And Dr. Reitze.

                 TESTIMONY OF DR. DAVID REITZE,

                  EXECUTIVE DIRECTOR OF LIGO,

               CALIFORNIA INSTITUTE OF TECHNOLOGY

    Dr. Reitze. Chairman Smith, Ranking Member Johnson, Members 
of the Committee, thank you for holding this very important 
hearing. I'm delighted and honored to be testifying before you 
today. My name is Dr. David Reitze. I'm the Executive Director 
of LIGO. I'm based at the California Institute of Technology.
    On February 11th, my colleagues and I announced to the 
world the first detection of gravitational waves from two 
colliding black holes. This is truly a stunning discovery. It 
comes 100 years after Einstein first published his general 
theory which predicted gravitational waves, and it was made 
possible only after a 40-year dedicated effort of experiment 
and theory funded by the National Science Foundation with your 
support, with Congressional support.
    This discovery is in and of itself an incredible scientific 
and engineering feet and it proves that Einstein was right once 
again. However, the detection is really much, much more than 
that. Up until this point, humanity had never observed two 
colliding black holes merging to form one. This is a stunning 
discovery. It's what my colleague Kip Thorne calls ``a storm in 
space-time.'' For the first time, we're probing the universe in 
a completely new way. Indeed, before this discovery, we hadn't 
even known that black holes existed in pairs.
    LIGO is a new kind of astronomical receiver similar to a 
radio telescope and can directly hear vibrations in space-time. 
The gravitational window opened by LIGO dramatically differs 
from all other windows. LIGO should be able to detect things 
that no other type of astronomical telescope will detect.
    Einstein tells us that space-time is warped, that gravity 
is geometric, and that black holes exist. It also predicts the 
existence of gravitational wave. As you pointed out, Chairman 
Smith, they are ripples in the fabric of space-time.
    The effect of gravitational waves is mind-bogglingly tiny 
so it takes massive objects, 30 stellar-mass black holes 
colliding with each to produce detectable waves, and the 
changes that we measure to detect them are one one-billionth of 
one one-billionth of a meter, incredibly tiny. That's a tiny 
fraction of a proton's diameter.
    First slide, please, Jose.
    [Slide]
    To detect gravitational waves, LIGO uses two 
interferometers. You see the one from Livingston, Louisiana, 
here, each having 4-kilometer arms, and the signal that we 
record is actually in the audio band. In other words, we can 
hear the signal when we play it through a speaker, and Jose, 
could you play the first? That is the sound of two black holes 
colliding. Play the next slide, please.
    [Slide]
    This makes it a little bit easier to hear. We just 
frequency-shifted it. Thank you.
    Like many scientific discoveries, LIGO had very humble 
beginnings. Experiments were carried out in the 1960s and 1970s 
by Rainer Weiss of MIT and groups at the University of Glasgow 
in Scotland and by Ron Drever in the Max Planck Institute in 
Germany along with theoretical efforts in gravitational-wave 
physics by Kip Thorne of Cal Tech as well as others.
    When LIGO was first proposed as a large-scale project in 
the mid-1980s, some deemed the project too risky and too 
expensive. NSF, however, recognized both the huge scientific 
potential and the cutting-edge technology that could result 
from designing and building LIGO.
    I believe this discovery is truly a scientific triumph but 
I want to set aside that for a moment and focus on some broader 
impacts.
    LIGO in the United States leads the world in this new form 
of astronomy. Large-scale interferometers are currently under 
construction in Italy and Japan, and India just last week 
announced that it will partner with the LIGO Laboratory to 
construct a third identical LIGO interferometer in India. The 
world is following the United States into this new scientific 
frontier.
    In addition, to make LIGO work, we had to develop the 
world's most stable lasers, the world's best mirrors and 
optics, some of the world's largest vacuum systems as well as 
push the frontiers of quantum-measurement science and high-
performance computing. We use a lot of technology, and all the 
technology we use, we advance.
    In addition, LIGO is a big data generator. We produce 
almost one petabyte--that's one million gigabytes--of data per 
year. LIGO scientists develop and employ sophisticated computer 
algorithms to sift through the data searching for these 
gravitational waves, and we use numerical modeling to model the 
signals that we expect to see, and that requires high-
performance computers, supercomputers, supplied by NSF XSEDE 
and Blue Waters program.
    All of this said, I believe that the largest impact from 
LIGO in the past and in the future will continue to be the 
scientific workforce, the education of scientists and engineers 
that we've done over the past 40 years and that we'll do going 
forward. Many scientists when they come to LIGO, they fall in 
love with it and they choose to stay. However, others go on to 
distinguished careers in both high-tech industry and 
international laboratories. And in addition, LIGO invites about 
20,000 students every year to come and visit our observatory 
education and outreach program.
    I'll close with the following statement. LIGO is a 
testament to the vision and tenacity of scientists like Rainer 
Weiss, Kip Thorne, Ron Drever, and others who began these 
research programs, but it's also a testament to the National 
Science Foundation, whose bold vision and steadfast support and 
stewardship enabled this discovery. It's with great 
appreciation that I also thank the U.S. Congress for 
recognizing the importance of this research and supporting it.
    Thank you.
    [The prepared statement of Dr. Reitze follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Reitze.
    And Dr. Gonzalez.

              TESTIMONY OF DR. GABRIELA GONZALEZ,

              PROFESSOR OF PHYSICS AND ASTRONOMY,

                   LOUISIANA STATE UNIVERSITY

    Dr. Gonzalez. Chairman Smith, Mr. Beyer and Members of this 
Committee----
    Chairman Smith. Is your mic totally on, or close enough? 
There we go. Thank you.
    Dr. Gonzalez. It is an honor to testify here on behalf of 
my collaborators. We thank you for your interest and support of 
gravitational-wave science.
    I'm Dr. Gabriela Gonzalez, a Professor of Physics and 
Astronomy at Louisiana State University and the current elected 
Spokesperson of the LIGO Scientific Collaboration, or LSC.
    Ours is an international collaboration that succeeded 
recently in detecting gravitational waves from black holes and 
will keep opening a new window to the universe. Can I have the 
first slide, please?
    [Slide]
    As shown in the slide, the LSC, which includes the LIGO 
Laboratory, has more than a thousand members in 15 countries 
with more than half of those in the United States. The 
collaboration was formed almost 20 years ago and is the entity 
that carries out the LIGO scientific research program. The LIGO 
Laboratory and the U.S. scientists have played a key, very 
important role in the LSC scientific and leadership activities. 
Also, LIGO has fostered the very effective relationship with 
other collaborations with the European Virgo Collaboration and 
with the Japanese KAGRA collaboration. The LIGO India project 
just approved by the Indian government is part of the LSC 
effort. We really lead the world.
    [Slide]
    As shown in the next slide--can I have the next slide, 
please--the LSC has a great diversity of colleges and 
universities in 22 different U.S. states. They are top-tiered 
private universities, large state universities, undergraduate 
and liberal art colleges, as well as institutions with many 
underrepresented groups in science. The collaboration effort is 
very broad, includes research in many different areas, and this 
investigation, all these activities, are geographically very 
distributed but the benefits of our research like the recent 
detection are common to all. That is one of the strengths of 
collaborative work.
    We do not receive funding as a collaboration. Each LSC 
group seeks funding from agencies for their research based on 
their own individual merits. In the United States, the NSF 
funds the LIGO Laboratory with cooperative agreement but also 
funds the basic research in the many other U.S. groups through 
the very competitive research award system, and that guarantees 
the quality of the funded activities. Can I have the next 
slide, please?
    [Slide]
    In this chart, and in these pictures, you can see that more 
half the LSC members are graduate students, postdoctoral 
scholars or undergraduate students. These are young, busy and 
happy investigators in training in a very interdisciplinary and 
international scientific environment. Undergraduates contribute 
to the LSC research program not only in the LSC groups but also 
in research experience for undergraduate programs in the United 
States funded by the National Science Foundation.
    The training in LIGO of all these young scientists is done 
at the forefront of science and technology. It's 
multidisciplinary. It involves precision measurement 
technology, Big Data analysis, a constant need for diagnosis 
and problem-solving, as well as basic physics and astrophysics.
    There are many career options available to LSC trainees in 
academia, national laboratories, and high school science 
education as well as cutting-edge industry.
    We compiled an incomplete list of companies employing LSC 
graduates and they are now working in the human genomics 
industry, the U.S. healthcare industry, biomedical information, 
oil industry, Microsoft, Google, Boeing, SpaceX, Northrop 
Grumman, Synaptics, Celestron, Luminit, Cytec Engineered 
Materials, GE Global Research, Geneva Trading, Seagate. We are 
training the workforce in the United States.
    Many members of the collaboration dedicate a significant 
fraction of their time to K-12 education and outreach. The 
public's curiosity about our discovery has been intense. Only 
last Saturday, almost 1,300 people, some driving for hours to 
get there, visited the LIGO Science Education Center at the 
LIGO Livingston Observatory in Louisiana. The Science Education 
Center is also funded by NSF. And they went there to see where 
the science is done and meet some of the scientists who do it. 
The national as well as the local coverage of our detection 
showed the broad spectrum of scientists working on this field 
everywhere. There are many local heroes to celebrate.
    In conclusion, the LSC will continue working hard on its 
mission to understand the universe better through the newly 
opened gravitational-wave window. We are very proud about the 
result of our work not just being amazing astrophysical results 
but also pushing the technology and contributing to the 
progress of society.
    We thank NSF and the U.S. Congress for the support of our 
activities.
    [The prepared statement of Dr. Gonzalez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Gonzalez.
    Dr. Shoemaker.

               TESTIMONY OF DR. DAVID SHOEMAKER,

                   DIRECTOR, LIGO LABORATORY,

             MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Dr. Shoemaker. Chairman Smith, Ranking Member Johnson, and 
Members of the Committee, thank you for holding this hearing 
and inviting me to participate today. I too would like to thank 
the Committee for its interest in gravitational waves and LIGO, 
and I hope our testimony helps the Committee in its work.
    I'm Dr. David Shoemaker. I'm with MIT in Cambridge, 
Massachusetts. My role was to have the pleasure and honor to 
lead the Advanced LIGO Project. Let's take a look at the first 
slide, please.
    [Slide]
    This was a major project, MREFC, and it came in on time and 
on budget. Could we look at the next slide, please?
    [Slide]
    To round out our testimony, I want to paint a broad picture 
of our field and its future. Let's look at the next slide, 
please.
    [Slide]
    What you see here are various images of people at work in 
the process of putting Advanced LIGO together.
    So our first goal is accomplished, as you heard. We made a 
detection, a remarkable thing, but it's just the start of the 
new astronomy.
    There are more kinds of sources that LIGO can expect to 
see. Let's look at the next slide. That's great. Thank you.
    [Slide]
    One of the ones that I want to talk about are neutron 
stars. These are stars which have collapsed from their original 
size, not all the way back down to a black hole but to material 
so dense that a single teaspoon would weigh 10 million tons, if 
you imagine such a thing. They tend to be magnetized and 
spinning, and they've got some strange things going on in their 
interior that we don't understand. They also can form binaries 
like the black holes that we saw, and if we can observe them 
both with our gravitational-wave detector as well as with 
satellites in space that NASA puts up to look at X-rays and 
regular telescopes on the ground that the NSF supplies for our 
observatory, we can put together all this information into a 
complete package and know more than we could have ever known 
without gravitational waves or without this combination, this 
synergy of information. So it's a wonderful new way to reuse 
tools that have been used for astronomy in the past and also to 
learn new things about space and nature that we couldn't have 
learned otherwise.
    We have other ideas of things we'll see. Supernovas are 
rare but they will be wonderful to see. The modelers still 
don't know how to make them explode, and we might be able to 
answer that question. There are collapsing stars. There are 
cosmic stringers. There are defects in space-time. There will 
certainly be surprises. There are a lot of things. Every time 
we open up a new window to the universe, we see new things and 
we're surprised every time. I think this is going to be another 
one of those surprises.
    Just as we need radio telescopes and optical instruments in 
the electromagnetic spectrum to see the full range of 
possibilities, we'll also want different kinds of 
gravitational-wave detectors in the future. Already underway is 
using isolated neutron stars, these funny, magnetized, spinning 
stars, looking at their radio signals from neutron stars 
throughout the universe, bringing them back down to the Earth 
and forming a complete picture of what we see and resolving 
that there're ripples in space-time between the Earth and these 
neutron stars that may soon yield the result that gives us our 
first ideas of what it's like for universe galaxies to be 
spiraling together. But really, the ultimate way of doing that 
kind of thing sometime in the future would be to have a space-
based antenna. Instead of having two-and-a-half-mile-long arms, 
in space you could make two-and-a-half-million-mile-long arms. 
Our sensitivity grows with the length of those arms. You could 
do phenomenal science that way, and at some point that will be 
something I think the scientific community will feel we must 
do.
    Coming back to Earth, let me say a little bit about LIGO. 
Next slide, please.
    [Slide]
    The first events were only seen with one-third of the full 
sensitivity that we believe this instrument currently can do. 
Right now, we're tuning it. We're increasing its sensitivity, 
and we think that we'll be able to run again sometime in the 
fall, making more observations. We're hoping that when we next 
run we'll be running with the French-Italian detector, Virgo, 
which will be coming on just about that time, and with three 
detectors, you can do a great deal more science. You can see 
where the source is in the sky and you can get an idea of what 
the polarization nature is. It will really add to what we can 
learn, and it leverages our investigation to have, as people 
were saying, these other projects that are coming along behind 
us but will add to, supplement the science we can do and 
complement the science we get from our own detectors.
    We are the leaders, but with these other observatories, we 
will have a worldwide global cooperation that will bring us all 
forward in science. Once tuned, Advanced LIGO can go even 
further with modest technology changes. We're learning how to 
squeeze light, how to get more uncertainty out of our 
measurement and improve our resolution by using squeeze states 
of light. We also are looking into making better optics, in 
particular, ones that have new and better coatings on them that 
can reduce noise in certain areas. And it could be at some 
point in the future if this field comes alive the way we think 
it will, that we'll need a new observatory. It's not there yet, 
but that'll happen.
    So the window to this new world of gravitational waves has 
just been cracked open. As we open it wider, more people look 
out on the landscape, we'll be rewarded with discoveries that 
will time and time again give us all, scientists, students, 
leaders and laypersons, a thrill of understanding things much 
better than ourselves.
    Thank you for your time. Thank you for your interest in our 
science and your continuing support for the spectrum of 
innovations in science and technology that we see in the United 
States. We hope this glimpse of our field has allowed you to 
share in the sense of accomplishment you have enabled.
    [The prepared statement of Dr. Shoemaker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Shoemaker. Thank you all.
    Let me recognize myself for questions, and I'd like to ask 
quick questions and ask you all to give brief responses if you 
could just to get though all these kinds of comments.
    But first of all, what are the practical application of 
gravitational waves? Dr. Crim, any thoughts on that?
    Dr. Crim. Detecting gravitational waves is this 
fundamentally inspiring scientific problem, and the point that 
Dave was just making about a new window on the universe, 
instead of just looking in the electromagnetic region or just 
looking at parts from space, we can now look in a completely 
different way and see new things, but the practical 
consequences of doing this are really what Gabby was talking 
about. They have to do with workforce and they have to do with 
technology. There are miracles of vibration isolation, and none 
of us really believe they're miracles but they are remarkable 
efforts at vibration isolation, laser stabilization. All of 
those are spinning forward into technologies that are extremely 
important to the county.
    In addition, the students--and I was very impressed with 
your list, Gabby--the students that come out of this are 
finding--are not just doing gravitational-wave physics, they 
are going on and transforming the semiconductor industry in 
SpaceX and many, many others.
    Chairman Smith. Thank you, Doctor. You gave several 
examples.
    Any other examples that anyone wants to mention? Dr. 
Reitze?
    Dr. Reitze. So I'll follow up a little bit. I actually 
believe what Dr. Crim said, that fundamentally, LIGO is about 
opening a new window on the universe. Just to give you an 
example, after we announced our discovery, the amount of 
reaction to it worldwide was awe-inspiring. I learned yesterday 
that--I'm not a social-media person but younger people are. 
There was 70 million tweets about this discovery which is, to 
me, mind-boggling.
    I can focus a little bit on the technology to focus on some 
of the vibration isolation system. We can't talk about it, but 
we've been approached by companies that manufacture, you know, 
computer chips that do lithography, and the vibration isolation 
that we do, all right, because we have such good low-frequency 
vibration isolation, we keep things still for a long time. 
That's actually something that could be very, very beneficial 
for companies that make semiconductor chips. There are other 
examples too that I could talk about but maybe----
    Chairman Smith. Okay. Dr. Gonzalez, anything to add?
    Dr. Shoemaker then?
    Dr. Shoemaker. I have one thing I can add to that. 
Timekeeping is really important for a broad range of 
activities. I think GPS is one of the things that we most 
frequently use now and take for granted. It requires general 
relatively to work but it also requires very precise 
timekeeping, and some of the innovations that we've made both 
in laser stabilization as well as these mirror coatings that 
are low loss and low noise, they help us do a better job of 
timekeeping, and that really makes a lot of the economy turn, 
being able to get things to a place in time.
    Chairman Smith. Dr. Reitze, let me follow up real quickly, 
and it is this: What can we learn from the LIGO detector--you 
mentioned this briefly in your opening statement. What can we 
learn from the LIGO detector that we can't learn from 
traditional telescopes?
    Dr. Reitze. Well, gravitational waves are dark. They're 
invisible to the electromagnetic spectrum. So everything we 
know about the universe comes from X-rays or gamma rays or 
light or an infrared radiation. This is a completely new 
sector, so in some sense it's the complete complement of 
astronomy, and the event we saw, black holes,we believe that 
you can't see them using conventional astronomy, so that's one 
example. As David mentioned, cosmic strings. There are a whole 
host of things that you cannot learn from any other type of 
astronomy that you can only learn from gravitational waves.
    Chairman Smith. I probably only have time for one more 
question, and let me address it to Dr. Shoemaker, Dr. Gonzalez, 
and Dr. Crim as well, and that is, for instance, Dr. Shoemaker, 
you mentioned coming surprises. Dr. Gonzalez and Dr. Crim both 
mentioned the future. So my two-word question is, what's next?
    Dr. Shoemaker. I'll make a guess, and it's a bit of a hope 
as well, that it will be a pair of neutron stars spiraling into 
each other, which we may actually see also with our ground 
instruments. That would be very exciting.
    Chairman Smith. Great. Thank you.
    Dr. Gonzalez?
    Dr. Gonzalez. Let me mention that this discovery of black 
holes was a surprise. We didn't know that these objects were in 
abundance, and we will now know a lot more about those. So this 
was the first surprise. We expect other surprises.
    Chairman Smith. You might discover something you're not 
even expecting.
    Dr. Gonzalez. That's right.
    Chairman Smith. Dr. Crim?
    Dr. Crim. Your last comment is exactly the point. At the 
budget presentation, the Director of the National Science 
Foundation, Dr. Cordova, said she wanted to tell us what the 
next discovery was but she didn't know because we had to 
discover it, and I think that is a very important point. Now we 
have a completely new way to look. I mean, to get out of the 
electromagnetic spectrum and have the complement of 
gravitational-wave astronomy is remarkable.
    Chairman Smith. Great. Thank you all for your responses. 
The NSF is well represented here today so I'm glad for them to 
hear your comments as well.
    I'll now recognize the gentleman from Virginia, Mr. Beyer, 
for his comments.
    Mr. Beyer. Thank you, Mr. Chair.
    I'd like to begin by thanking the Chairman and the Ranking 
Member for having this hearing. This is great fun. I love this 
job just for what we get to learn, and I'd like to welcome the 
students from Oakton High School from northern Virginia. 
Welcome. It's great to have you guys here.
    I feel like I'm in Bern, Switzerland, in 1905 or the United 
States in July 1969. This is just so exciting. And I have 
some---forgive me--nerd questions for you guys, and I'm not 
quite sure who to send them to.
    So we have the strong nuclear force with the glue on and 
you have electromagnetic force with the photon and the 
gravitation force is supposed to have the graviton, 
gravitational waves and graviton wave particle, so tell us 
about the graviton.
    Dr. Gonzalez. The graviton is actually the particle nature 
of gravity. What we detect with our detectors is the wave 
nature of gravity. Those are the gravitational waves. So it's a 
classical version. Each of these gravitational waves we 
detected and the ones that----
    Mr. Beyer. Will you be able to find something like the 
photoelectric effect with the gravitons?
    Dr. Gonzalez. Probably not with LIGO detectors, no.
    Mr. Beyer. Okay.
    Dr. Gonzalez. We do not do quantum gravity. That is 
actually a very hot area of research but we do classical 
relatively, which is interesting enough.
    Mr. Beyer. Okay.
    Dr. Reitze. To follow up on that, so we actually calculated 
how many gravitons we saw or how many gravitons were released 
in this experiment or in this black-hole collision, numbers 10 
with 80 zeros after it, so there's a huge number of gravitons 
here. We may discover something. I might--we may discover 
something interesting about quantum gravity that we didn't know 
before. That's one of the excitements of this business.
    Mr. Beyer. Does the gravitational waves go at the speed of 
light?
    Dr. Reitze. Yes. That's what we've learned in this 
experiment, that we've put a limit on it, that it can only--it 
can't go slower than .992 or 993, the speed of light. We 
believe it goes at the speed of light.
    Mr. Beyer. So we didn't know that these black holes existed 
or were about to collide until we saw the gravitational waves 
from then, and imputed that backwards?
    Dr. Gonzalez. Yes.
    Mr. Beyer. Very cool. So Einstein spent most of his life 
hating quantum mechanics and trying to reconcile quantum 
mechanics with general relativity, reconciling gravitation 
force with the electromagnetic and the strong force. Does this 
help?
    Dr. Reitze. Actually it's interesting. Einstein, first of 
all, he goofed when he calculated the first gravitational-wave 
phenomenon. He actually got the term of the radiation wrong. He 
corrected that and fixed it, but later he actually believed 
that the--first of all, the effect was so tiny that it would 
never be discovered, so he never worried about it, and then 
later he actually believed that it didn't really exist and he 
had to be convinced by one of his postdoctoral associates that 
it exists. So Einstein himself doubted his own discovery.
    Mr. Beyer. But will--Dr. Crim, will the reconciliation 
between quantum mechanics and general relativity come about?
    Dr. Crim. Well, we're certainly funding researchers who are 
working hard on pushing the theory and pushing that 
understanding. That's a great, outstanding question in physics 
and in science today. But it's interesting to think, if we 
think about--you mentioned the photoelectric effect. The things 
that gave us hints about quantum phenomena were people looking 
for often electromagnetic radiation to behave classically. So 
as we now have the ability to look at gravitational radiation, 
just as my colleague said, there may be a surprise lurking in 
there as we go and with this tool start to poke on that 
behavior.
    Mr. Beyer. The cosmologists try to look as far in time in 
possible and, you know, we have that initial thousandths or 
millionths of a second that we can't see. Does gravitational 
waves help us to get back to there?
    Dr. Shoemaker. We can say that it's unlikely that LIGO with 
a ground-based observatory will have a chance to see the 
primordial gravitational-wave background. At least our 
predictions right now insofar as we understand it would put 
them at a level which is too low to be seen, but it could be 
that either a space-based antenna could be seen--could see 
these sorts of effects or these ground-based antennas, which 
have been looking from Antarctica to try and understand the 
polarization of the Big Bang background, I think those 
experiments will also give a positive result shortly. I hope 
they will. That will be a very exciting result.
    Dr. Gonzalez. And let me say that one of the questions that 
people are drawing--one of the conclusions they're drawing from 
our observation is how early or how late the black holes 
formed. That is not well known at this point, and our 
observations are the ones giving clues about the origin of the 
small black holes.
    Mr. Beyer. Dr. Reitze, one last question. String theory, 
yes or no?
    Dr. Reitze. Maybe.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I've 
got a wild question at the end to ask you, but in the meantime, 
let me do some business here.
    We started off this program with a $300 million grant in 
1980. Is that correct? Okay.
    Dr. Crim. Ninety-four was actually when that was made.
    Mr. Rohrabacher. Okay. So--okay. I thought that you said it 
was 1980. In 1994, was the first major expenditure of $300 
million?
    Dr. Crim. That was when we went to the phase of actually 
constructing LIGO but these earlier dates where we're talking 
about funding research starting in 1979 had to do with a lot of 
demonstrations of both technology and science. For example, 
people built tabletop laser interferometers to start to show 
that they could reach the kinds of sensitivities--there was a 
chance to get there. My colleagues here can tell that story in 
some detail but this is a pattern that we often follow. We 
start out funding folks who lay the groundwork and then the 
community gets together, again as my colleagues said, and makes 
a compelling argument based on that early theory and 
experiment.
    Mr. Rohrabacher. Okay. So from those early experiments 
until now, how much are we talking about that's been spent on 
the project?
    Dr. Crim. We have spent a total of over a billion dollars, 
$1.1 billion. About $450 million of that went into actually 
constructing initial Advanced LIGO. The rest has supported 
operations and maintenance of the observatories as well as 
individual investigators that were doing that early kind of 
work and the laboratory work I'm talking about.
    Mr. Rohrabacher. We talked about everybody's working 
together and many different countries have contributed. How 
much have they contributed to this effort?
    Dr. Crim. David, why don't you comment?
    Dr. Reitze. So Japan got started with a detector in the 
1990s, and they're building a big one. I think their number, 
don't quote me on this, but I think it's on the order of 250 
million, but they're well behind us.
    Mr. Rohrabacher. The Japanese, you say?
    Dr. Reitze. That's the Japanese detector. The Italian Virgo 
detector, I think they're in--the way they do their accounting 
is a little bit different because they don't cost their people 
in it so it's not really an apples-to-apples comparison but 
probably they have spent about $200 million not including the 
people that they've put into it.
    Dr. Crim. It's foreign countries----
    Dr. Reitze. Oh, I'm sorry. Maybe I misunderstood the 
question. Foreign contributions to Advanced LIGO--David 
Shoemaker might be able to answer that question.
    Dr. Shoemaker. Let me speak to that. NSF did fund us for a 
program to build Advanced LIGO detectors at $205 million, but 
then of their own free will, the German Max Planck Society, the 
STFC in the U.K., and also ARC in Australia all made 
contributions with a total value of some $17 million just 
because they wanted to be part of the experiment. They would've 
had access to the data. They would have enjoyed the profits of 
it. They wanted to be part of this activity.
    Mr. Rohrabacher. So would it be fair to say we've spent 
about half the money that was necessary for the project to be 
successful as you are today, and the rest of the world spent 
half of that, and----
    Dr. Shoemaker. No, our fractional contribution is much 
larger than that, but as far as getting to the point of this 
observation, it is sort of 20 million versus 450 million of 
construction costs but Dr. Reitze was making an important 
point. Other nations are mounting large gravitational-way 
detection elements and we are working in concert with those. So 
if you wanted to add up all of that, the money going into 
KAGRA, the money that's going into Virgo, that becomes a much 
bigger number, but as far as the U.S. investment in these 
instruments, it's about what I said.
    Mr. Rohrabacher. I've always supported basically research 
when we're looking out because I've been told that if we're 
looking out into outer space that we actually can determine 
what's going on in the molecular structures that can have 
impact, major impacts here, and sometimes it's easier to see it 
out there than it is to see it through your little microscopes. 
Telescopes and microscopes are very related from when I was 
first educated when I first came here, so I've tried to be 
supportive of both efforts.
    Now let me ask a little--I know this--Mr. Chairman, just 
one--first of all, we're talking about waves, and I'm a surfer, 
of course, and I want to find out about riding waves, but will 
this discovery that you are talking about today make time 
travel any more--I mean, this is one thing I've been hearing 
about. Will it make it any more likely?
    Mr. Loudermilk. Beam him up, Scotty.
    Dr. Gonzalez. We wish. This actually does show distortions 
of space-time so we measure it as distortions of distance but 
it is distortion of time. We can see time traveling faster and 
slower but it cannot make us travel in time.
    Mr. Rohrabacher. Well, thank you very much.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from Connecticut, Ms. Esty, is recognized.
    Ms. Esty. Thank you, Mr. Chairman, and to the Ranking 
Member, and most of all, thank you to the four of you and these 
huge, exciting team of international researchers. So there are 
two topics I wanted to quickly touch on. First was the 
importance--and you've all mentioned it a little bit but the 
importance of robust, long-term funding for basic research. You 
know, if we're going to break those boundaries, reach beyond 
what we know, it does take that kind of serious long-term 
committed investment, even in the face of if not failure, not 
the sort of data you would have wanted. So a couple of you can 
comment on that because we're under constant budget strains, 
and it's really easy for people to say, you know, I have 
bridges and roads and schools in my district that need fixing 
but I also believe that we will be better not just as a country 
but as a species if we continue the sort of cutting-edge 
research. So that's one topic.
    And the other was to talk a little bit--and Dr. Gonzalez, 
you particularly touched on this--about the diverse STEM 
workforce and the need to inspire a new generation, the 
collaboration that comes up, and what efforts are being taken 
in this project to make sure we're seeing diversity because I 
know, you know, a suburban white boy may be thinking about 
using those STEM skills differently than a woman of color in 
the inner city, so hoping that we're really making an effort as 
part of this collaborative endeavor. Thank you very much.
    Dr. Shoemaker. Let me say one or two things about 
discussion of the sustained support for the research. I'm a 
professional scientist, I'm not a faculty member, and it's been 
really invaluable for me and for other colleagues in the LIGO 
Laboratory supported by the National Science Foundation to be 
able to turn our careers to this and choose to, without 
striving every 6 months to look for another funding source, to 
be able to make plans, to be able to make small-scale 
experiments that take years to give results, to work with 
industries in a cooperative way through the manufacturing 
cycle. It's that kind of continuity and intellectual input that 
allows something of this nature to take place. So that's been a 
very, very important thing to us. Clearly, also, when students 
come to us and say they want to do a project with us, and we 
can tell them you're going to be able to start and finish on 
this topic. It's something that really gets people engaged, 
keeps their mind on the science and away from what's happening 
next, so it's been very valuable to us. Thank you.
    Dr. Gonzalez. I have to say that it's not only us as 
members of this collaboration that are inspired to work on this 
because of black holes and gravity and Einstein, we inspire 
people too, and we have made a very big effort, we have a big 
effort in outreach and diversity. We actually try very hard in 
the United States to increase diversity, not just of our 
collaboration but of the scientific workforce in general. We 
work with the National Hispanic Society of Physics, with 
National Black Society of Physics. We have fellowships that we 
work out with them. So we do have a very diverse effort.
    But it's been rewarding with this discovery, especially to 
receive questions and visits, visits from schoolchildren, from 
parents wanting their children to learn about the science. We 
receive emails all the--all day from many schoolchildren asking 
about gravity and Einstein and how do you do this and where is 
this done and how can I visit. It's inspiration that we provide 
that I think it is--it's going to help the diversity of our 
workforce.
    Ms. Esty. And to that point, if you have not already, I 
would hope that you are developing materials, links to websites 
that you can disseminate us to, we can to our districts and to 
our colleagues to allow that citizen exploration and 
inspiration because we find obviously the ability to use the 
internet really does bring this home, and I can tell you we had 
the astronauts here in a live link in this room, and I was able 
to have a live link with an astronaut from my district, and the 
inspiration for 3,000 school students who could watch a 
graduate from their high school speaking to them while he's 
spinning upside down was extraordinary, and I would hope--this 
has really captured the Nation's imagination so I urge you to 
develop good materials of a variety of ages and then we'd love 
to--I know I would, and I know all of us would love to be able 
to make that available to the students and----
    Dr. Gonzalez. We are working very hard on that. We already 
have a K-12 material about this discovery, and we also have 
translations on our website and our papers in different 
languages including Spanish.
    Ms. Esty. Terrific. Thank you very much. I really 
appreciate your hard work, and another 40 years for this 
project. Thank you.
    Dr. Crim. If I could----
    Ms. Esty. Dr. Crim, yes.
    Dr. Crim. --briefly comment to two of your points. Our 
Directorate for Education and Human Resources has been 
collaborating with us and generating the kinds of materials 
that you're talking about. We began thinking about that prior 
to the announcement and conversations with the leader of that 
directorate, Joan Ferrini-Mundy.
    Your comment about long-term sustained funding and what 
David had to say about it is really important. We see ourselves 
trying to find ways to support these long-term risky bets to 
really get out on the edge and do something transformative, and 
I think we all recognize the challenges that--with the budgets 
the way they are but we see that as a constrained, a boundary 
condition within which we work, and we try what we can to 
accomplish what David was talking about to let these projects 
have the stability. It's not easy. It's a constant dynamic 
tension.
    Ms. Esty. Thank you all very much.
    Chairman Smith. Thank you, Ms. Esty.
    The gentleman from Florida, Mr. Posey, is recognized for 
his questions.
    Mr. Posey. Thank you, Mr. Chairman. Thank you for holding 
this hearing, and I want to thank all the witnesses for their 
participation on this exciting subject.
    For Dr. Reitze and Dr. Shoemaker, because the expansion of 
the universe is accelerating, I'm told that the science 
theorized a mysterious dark force is pulling us apart and that 
only five percent of the universe is visible to us. They say 
dark matter is 27 percent and dark energy is 68 percent of the 
universe. That's just what I read. Can the gravitational waves 
help us understand the missing dark matter and the dark energy 
better?
    Dr. Reitze. So let me start, and David can comment. It may 
be possible--first of all, gravitational waves themselves 
exist. They're ubiquitous just like dark energy and dark matter 
but they're a very, very tiny fraction. I mean, you can sort of 
add up how much energy density is in from gravitational waves 
and it turns out to be very tiny. But it may be that 
gravitational waves interact with dark matter in a way that we 
haven't theorized yet or calculated so it may very well be that 
somebody will come up with an idea to use LIGO or maybe LISA, 
the space-based detector, to detect them. So it is--you know, 
it's one of those things where now that we've detected 
gravitational waves, people are going to start thinking about 
how can we use to understand other more fundamental things.
    Dark energy is trickier. I once heard somebody say that 
dark energy overstates our knowledge of this phenomenon by two 
words: dark and energy. We really don't even know what--it's 
getting--there's getting better understanding of it but it's 
still--you can measure it but to understand it is kind of hard.
    Dr. Shoemaker. Let me add that we're already one step along 
the way by having seen just how well our discovery, our first 
discovery, matches general relativity. It is astonishing how 
well Einstein's theory from 1916 matches what we saw, and that 
already excludes some possibilities for some things going 
haywire in our understanding of the universe. So that's already 
a set of constraints, and we think as we see each new source, 
we'll probably reach new limits. Maybe we'll discover something 
which is different than we expect, and that would really be a 
key, or maybe we'll find that our theories are better and 
better confirmed, but either way, this new window on the 
universe gives us a possibility to close some opportunities 
that would otherwise not be there to zero in on what the real 
answer is.
    Mr. Posey. You know, if it took 100 years to go from 
Einstein's equations to discovering they're actually correct, 
just wildly thinking, what do you foresee in the next 100 
years? And all of you just comment on that if you don't mind.
    Dr. Reitze. So my favorite philosopher is a gentleman named 
Yogi Berra, and he said predictions are difficult, especially 
about the future. You know, you can look back 100 years ago 
when general relativity was first postulated, when quantum 
mechanics were first postulated, and it was--at least it would 
have been impossible for me to project forward where we might 
be. That's the thing about science that's so great, that you 
never know where your big breakthrough is going to come from. 
So for example, you know, everybody probably or some people 
have been through MRI, you know, getting diagnostic imaging 
from MRI. That comes from an obscure phenomena that was 
investigated in the 1940s and 1950s by nuclear physicists and 
condensed-matter scientists so I wish I could answer. If I 
could, I would probably make a lot of money in the stock market 
but I just don't know.
    Mr. Posey. We love wild speculation in this Committee, and 
that's just what Einstein was 100 years ago actually.
    Dr. Gonzalez. Let me say that I also don't have an 
imagination big enough to think what will happen in 50, 100 
years from now, but I think there are surprises that are a lot 
closer. We are looking at the dark side of the universe. You 
talk about dark matter, dark energy. We are looking at the dark 
side, black holes of which we know very, very little. These 
surprises are just around the corner. That's what I imagine the 
best side of this story is.
    Dr. Crim. I want to emphasize how well chosen your time 
scale is in that it can take 20, 50 or 100 years for these 
discoveries to come out of ideas that start to emerge now and 
the consequences can play out over those time scales.
    Dr. Shoemaker. I don't have too much to add. I'm an 
instrument builder. I love the technologies. I know we'll be 
doing wonderful things with the technologies that we're 
developing 5 or ten years from now. What will happen 100 years 
from now, I have absolutely no idea, but it will be neat.
    Mr. Posey. And finally, Dr. Crim, I was wondering as the 
field of gravitational-wave astronomy moves forward, how are 
the NSF and NASA corroborating on supporting the field?
    Dr. Crim. We have a very effective and close collaboration 
with NASA. The simple way to describe it is, we do ground-based 
astronomy; they do space-based astronomy. But that means that 
oftentimes experiments we fund are very complementary to ones 
they fund. For example, we have a collaboration on their 
exoplanet program making ground-based radial velocity 
measurements to understand the mass of planets around other 
stars. So we have joint committees where we talk constantly, 
and the physics and astronomy that unites this effort is common 
to us both, and we're in really good contact.
    Mr. Posey. Thank you.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Posey.
    The gentleman from Illinois, Mr. Foster, is recognized.
    Mr. Foster. Thank you all again.
    And just in terms of technology, I bet you have some fun 
facts about your mirror specifications and how that compares to 
the sort of mirror that you look at every day in the bathroom.
    Dr. Shoemaker. Well, I've actually never done any metrology 
on my bathroom mirror and so I can't quote you the 
specifications for it. The optics which are hanging freely in 
space to respond to the passing gravitational waves are right 
circular cylinders. They're chunks of beautiful, clear fused 
silica, or glass. They're about 100 pounds each. They're 
about--they're 34 centimeters, about a third of a meter, about 
a foot and a half in diameter. Their surfaces are polished to 
the radius of curvature that matches our two-and-a-half-mile-
long arms so they're actually a very, very shallow curve and 
figured to within a ten to the minus 9 of a meter across or ten 
to the minus 10 of a meter across the full surface. This is 
work done by Zygo et al and they developed these techniques I 
think for some satellites that are looking down on us at the 
very moment. But they were able to figure these mirrors to an 
absolutely superb precision and then on that we put down layer 
after layer of alternating indices of refraction to get mirrors 
which reflect the light back extremely effectively with very 
little absorption but then also a curious additional 
requirement that the mechanical losses in the coating be low. 
This is part of the thermal noise. It's like the Brownian 
motion. Everything is jiggling around because it's at room 
temperature. Our coatings are the things that jiggle the most 
in our entire interferometer, and it's there where we have to 
put the most work in the near future in making our technology 
advances, and those are tough ones to do.
    Dr. Reitze. And let me just follow up on that. This is 
where LIGO is so cool in so many ways for me. This is--the 
problem that David just alluded to is a material-science 
problem. You know, we have to solve fundamental material-
science problems to be able to discover black holes so there's 
just a natural connection across lots of different disciplines.
    Mr. Foster. Thank you. So cooling the mirror is not going 
to get around the coating problem?
    Dr. Shoemaker. It would work. In fact, the Japanese 
detector, KAGRA, which is in the process of now going together, 
uses this technique of cooling mirrors. The noise goes down as 
the square root of the temperature and so it's a pretty hard 
row to hoe. You have to bring down the temperature of a lot of 
big equipment in the presence of a very intense laser beam, so 
it's a big challenge. It's going to be somewhere in our future 
but I think we can do a lot on the Earth with the LIGO 
infrastructure without getting into cooling, and I hope we can 
hold off on the cooling until we really know that it's the best 
path to take. It's complicated.
    Dr. Gonzalez. But let me say that like Dave said, this will 
take fundamental research in coating technology that it's not 
in hand yet. Advancing our detectors, improving--we can improve 
the detectors. We have technology already to improve the 
detectors a bit but to improve them ten times better, we have 
to make them 10 times longer or get technology for these 
coatings 10 times better.
    Mr. Foster. And what do you think are the ultimate 
capabilities of ground-based versus space-based and what are 
the sort of sources that you can hope to see with each? And in 
particular, what would it take to get to the sensitivity where 
you could have seen SN1987A, the supernova that was detected in 
my--the detector built for my Ph.D. thesis?
    Dr. Shoemaker. Let me say a little bit about the technical 
limits on the ground. What we'll probably find ourselves 
limited by is the lowest frequency we can observe which also 
corresponds to the biggest system of masses that we can 
measure, and it's finally the fact that the Earth is not just 
moving but also compressing and getting less dense as seismic 
waves pass that causes our mirrors to move because the amount 
of Newtonian attraction of the mirror is changing as a function 
of time, and that's a wall that's about one hertz and that will 
limit us to, I don't know, something like a thousand solar 
masses as the biggest objects that we can really measure on the 
Earth, and at that point it will really be the time to go into 
space and see what's going on there. The others, if you want to 
respond to the other questions?
    Dr. Reitze. Yes. If the supernova 1987A went off today and 
LIGO was on line, we'd have a good chance of actually seeing 
it. We would have actually seen it. Or if we didn't see it, it 
would've said something about the dynamics of the core collapse 
in that supernova process. So there's a star Beetlejuice that's 
a red giant and it's probably going to explode sometime in the 
next 10,000 years. We're hoping it explodes in the next--we're 
hoping it's already exploded and the signal's on its way----
    Mr. Foster. Do you have any graduate students where that's 
going to be their Ph.D. thesis?
    Dr. Reitze. They're lining up in 2028.
    Dr. Gonzalez. But let me say that the sensitivity to 
supernova is on the high-frequency end as opposed to the low-
frequency end, and the coolest technologies that we will be 
applying is quantum manipulation of the light that will improve 
our sensitivity to supernova.
    Mr. Foster. And so do you have an easy way to explain to 
this Committee what squeezed light is?
    Dr. Reitze. Sure. So--I'm sorry. These are questions we 
love, okay, and shut me up if I'm getting--I'll be quick.
    So electromagnetic waves are not very precisely defined. 
They have uncertainties in amplitude and in phase, all right, 
and that comes from the natural quantum nature of light, and 
the way that you distribute those uncertainties, somebody named 
Heisenberg told us that there was sort of a little fuzz ball. 
You can think about an electromagnetic wave as a vector with a 
fuzz ball at the end. You can actually squeeze the amplitude at 
the expense of phase or vice versa. So this is something that's 
existed since the 1980s and it's actually a technology that 
hasn't found much of an application until LIGO, and now we're 
using it, so----
    Mr. Foster. Thank you. I yield back.
    Chairman Smith. Thank you, Mr. Foster.
    The gentleman from Kentucky, Mr. Massie, is recognized.
    Mr. Massie. Thank you, Mr. Chairman.
    My first question is, how frequently do these observable 
events happen? You know, like when we talk about storms and 
floods, 50-year storm or a 50-year flood, 100-year-flood, this 
event that you observed from probability, how soon can we 
expect to see one of that magnitude or larger again?
    Dr. Gonzalez. Very soon. We----
    Mr. Massie. Like five minutes or five decades or----
    Dr. Gonzalez. Well, let me tell you, the analysis that we 
presented was the analysis of one month of data taken with the 
two detectors that only had 16 days of effective time when the 
two detectors were working together and we need the two 
detectors to confirm the signal, and we saw one event in one 
month. Of course, you could say you can----
    Mr. Massie. Well, that either means you got really lucky or 
your instruments aren't working, or it could mean a lot of 
things so----
    Dr. Gonzalez. That's right. That's right. So we can only 
predict from that one month of data. We can only say we saw one 
event in one month. But we have taken three months more of data 
that we are still analyzing, and everything we see is 
consistent with what we saw there, and we are going to take 
more data in the future, and from the theories that we derive 
even from this just one observation, we have a predicated rate 
that will mean at least a few a year.
    Mr. Massie. Dr. Shoemaker, you're from the university I 
graduated from so----
    Dr. Shoemaker. Oh.
    Mr. Massie. --go ahead.
    Dr. Shoemaker. So one other thing to point out, though, I 
mentioned that we're at one-third of the sensitivity we believe 
our instruments can achieve with just doing tuning. A really 
neat thing about gravitational waves, it's an amplitude 
phenomenon. It falls off as one over R and not over one over R 
squared, the distance from the source to us. If we can increase 
our sensitivity by a factor of two, the number of sources 
within reach goes up as two cubed.
    Mr. Massie. So I was going to ask you about that. You said 
it's going to increase by a factor--or it's going to increase 
by three. Did you mention 3X or three orders of magnitude?
    Dr. Shoemaker. I mean 3X.
    Mr. Massie. Okay.
    Dr. Shoemaker. That's to say we'll reach----
    Mr. Masie. Darn.
    Dr. Shoemaker. --three times further out, but that means 
that the effective--sorry. That means the effective rate will 
go up by 27 if you cube three, and if we saw one event in 30 
days of observing, that says we might get to the point where 
we're seeing an event every day if this one event we saw is 
representative of the rate. So I think we can see that there's 
a lot of progress in the future----
    Mr. Massie. Right.
    Dr. Shoemaker. --that can go to increasing the rate.
    Dr. Reitze. And that's just for binary black holes. We 
still haven't seen neutron stars, and we expect to see quite a 
few of them per year when we're at design sensitivity.
    We talked about supernovas before. They are the ones that 
are going to be hard to see. We're going to have to get really 
lucky to see a supernova because they're just not that strong 
of an emitter.
    Mr. Massie. One of the questions I did want to ask, and Dr. 
Gonzalez, you touched on it. Did you remember to leave it on 
when you came to the hearing? Like what is the duty cycle? How 
frequently is this collecting data, and maybe we've already 
observed things we don't even know yet and people just need to 
sort through that data. Maybe we've already observed 
simultaneously something that we saw in the electromagnetic 
spectrum but we just don't know it yet. Is this thing turned on 
now?
    Dr. Gonzalez. It is intermittently, but for diagnostic 
purposes, we have not taken data in coincidence but we have 
plans to take more, what we call engineering runs, 
opportunistic engineering runs. We have another run with the 
two LIGO detectors starting in this late summer, early fall, 
perhaps July, and that's how we will know what the rate of 
these binary black holes and perhaps other events will be.
    But let me say, you asked me if I remembered to leave it 
on. It's not me, and that's the strength of having a thousand 
people working on these. We have 200 people in the LIGO 
Laboratory and they are the ones who not only keep the 
detectors on but they improve them every day.
    Mr. Massie. I have a question I want to make sure I get to 
ask. What are the sources of noise that you have to contend 
with? You know, like I imagine our sun is doing something. 
There may be nuclear tests where on Earth that are causing 
seismic. Maybe talk radio is interfering. It's a big source of 
noise. But what are some of the noises you'd have to filter 
out?
    Dr. Shoemaker. Let me say what the basic noise sources are. 
One of them has to do with the sort of quantum effects that 
Dave Reitze was talking about. We use lasers, and the lasers 
emit photons in a statistical way so there's a fluctuation of 
the number of photons so there's a fluctuation in what we use 
as our measure of where the masses are.
    Mr. Massie. Can you get smaller photons?
    Dr. Shoemaker. The thing to do is get more photons, turn up 
the laser power. The next thing to do is address these 
questions of thermal noise that I mentioned earlier on, that 
everything is jiggling around due to Brownian motion, and the 
way we address that is to choose materials that have very, very 
low internal losses and squeeze all of that jiggling into a 
very narrow frequency band.
    Lastly, you were talking about seismic motion. We built--
and that's one of the really big improvements of Advanced LIGO 
over Initial LIGO, a system of seismic isolation which makes it 
so that we're effectively independent of the environment around 
us during normal weather conditions. We still can get knocked 
out of lock when there's a lot of wind. There was a tornado 
down in Louisiana just yesterday. So there's----
    Mr. Massie. One last quick question before I yield back. 
When you get this third detector, does that just improve the 
reliability of your data or does having a third point on Earth 
give you an ability to triangulate? Dr. Crim, you were shaking 
your head. Maybe you could----
    Dr. Gonzalez. All of the above.
    Dr. Crim. All of us are shaking our head yes. That's----
    Dr. Gonzalez. To both.
    Mr. Massie. But will it give you a bigger picture of what's 
going on? Can it do that?
    Dr. Gonzalez. It gives you better localization so you will 
better pinpoint what the source comes from, but also if you 
have three detectors, you need two to see a signal. If you have 
three, you can have one on and the other two and then you will 
still see the signal. With only two LIGO detectors, if one is 
down, we are in the dark.
    Mr. Massie. Thank you, and I yield back. I could ask a 
hundred more questions. This is very fascinating. Thank you.
    Chairman Smith. Thank you, Mr. Massie.
    The gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Thank you, Mr. Chair, and welcome to our panel. 
What a fascinating panel. Let me congratulate you and all the 
people and institutions who have inspired this tremendous 
moment. It's truly a phenomenal success, and certainly I'm 
grateful to the people who had the vision and pursued based 
upon the seed that they planted to be determined to come to the 
success that we've met. So I anxiously look forward to what 
else is out there, and you know, and can't wait to see what is 
yet to come. And if this doesn't serve, if this doesn't 
illustrate the value added of high-risk, high-reward basic 
research, I don't know what does. So hopefully we get the 
message, we invest deeply and soundly in research and move 
forward.
    My question would be to all of you, any of you, what role 
did partners in industry play in the design and development of 
the--of this new technology? Certainly you've got 
infrastructure that we've seen in your slide presentations. 
There was a lot of talent you had to draw upon, so can you 
describe that, please?
    Dr. Reitze. Just a couple of examples. I'll start actually 
with the first LIGO, Initial LIGO, which was built in the late 
1990s and 2000s. We partnered closely with a firm called 
Chicago Bridge and Iron Works that developed our vacuum system, 
and this was a--this vacuum system at the time was the world's, 
I think, largest although maybe that's not true from a defense 
standpoint, highest vacuum system, and some of the work that 
they did for us went on to later inform what they did for the 
National Ignition Facility.
    We worked closely with a company in Silicon Valley that 
developed layers, Light Wave Electronics. They developed the 
first laser for Initial LIGO that was actually used in some 
other applications such as newspaper printing.
    As David mentioned, we worked closely with industry for 
developing optics and coatings so that's both in the United 
States and in with international partners. We worked a lot with 
companies in Colorado, in Boulder, Colorado, to develop some of 
the first LIGO mirrors and some of the first coatings, a 
company called Research Electro-optics, also advanced in films. 
We work a lot with companies like Invidia, all right, because 
we use graphic--we use GPUs in some of our analyses. We're 
actually not using them right now but we will be using them so 
we'll working closely with them. So there're a number of touch 
points where we've actually worked--partnered closely with 
industry, and that's just a partial list.
    Mr. Tonko. Right. Anyone else that----
    Dr. Shoemaker. That covers a broad spectrum of the things 
that we used.
    Mr. Tonko. Was there anything unique in the collaborations 
that you developed as a LIGO industry? Was there anything in 
particular that was a different approach?
    Dr. Reitze. We developed--actually, this is one of the 
things that I worked on. We had to develop some novel electro-
optic technologies for--it's sort of a technical thing about 
how we lock--how we keep our interferometer in an operational 
point. We had to develop something called electro-optic 
modulator that was actually new and it's patented. It hasn't 
been licensed--it hasn't been licensed yet. But there are 
things like that. Some of the work that we did with the silica 
fibers, I think, with the Glasgow group has been spun off to 
some other applications.
    Dr. Shoemaker. Then coming back to the mirrors once again, 
we knew what we needed for mirrors and so we found the very few 
bidders, one in Australia and one in France, by the way, who 
could deal with our basic requirements but they couldn't 
actually even measure what needed to be measured, and so we 
gave them instruction on how to proceed. We worked with them in 
a collaborative way to develop the technologies that were 
necessary and then we brought the optics back to Cal Tech where 
the very finest metrology in the world could be done and give 
them feedback about what they need--you know, what kinds of 
changes they needed to make in their technology. So in that way 
we were able to trade things back and forth between the 
academic side and the commercial sector and work in a 
collaborative way to get something to push the state-of-the-art 
forward.
    Dr. Gonzalez. I should mention also that information 
technology has been used. Many of the algorithms or some of the 
algorithms that we developed to search for gravitational waves 
in the data have been--have found applications in the genomics 
industry and in some other Big Data analysis, and that's why 
some of our graduates actually are sought by these industries.
    Dr. Shoemaker. In particular, the kinds of challenges that 
we have of looking for small, intermittent signals against a 
complicated noise background are things that the defense 
industry finds interesting, so a number of people have gone off 
into that sector and discovered the skills that they developed 
with us were very useful. We don't hear much back from them, 
though.
    Mr. Tonko. Well, it just shows the emphasis that we have on 
science and engineering, scientists and engineers to make it 
all happen.
    And just quickly, Dr. Reitze, you made mention of the 
commitment of NSF to fund the development of LIGO as a 
scientific moon shot. Can you elaborate upon that?
    Dr. Reitze. Yeah. Look, I think Chairman Smith said it, or 
somebody said it quite well, that the first time people, 
rational scientists hear about LIGO, they think it's crazy 
because they think how do you possibly make a device that can 
measure to the billionth of, one- one-billionth of a diameter 
of a proton, and you scratch your head, and then you start 
thinking about it and you realize that yes, it is possible. So 
in some sense, this was even bigger than the moon shot in the 
sense that I think most physicists--and it ran into resistance 
early on. Most physicists didn't believe it could be done. So I 
think it was due to a few key people including some key NSF 
Directors early on, Rich Isaacson and Marcel Berdon, that 
recognized that yeah, you could do this. It was just amazing.
    Dr. Crim. Just to briefly follow up on that, this is not a 
discontinuous process as people scratch their heads, they do 
calculations, they do experiments, and you persuade people. 
It's a very critical community competing for precious 
resources, and people have to make their case forcefully, 
persuasively, and part of what we try to do at NSF is to 
balance off all of those really good ideas, and it's a 
marketplace where people have to really meet a very high 
standard, and this wasn't some longshot, it was a series of 
considered bets, and they were risky but it's paid off 
beautifully.
    Mr. Tonko. Well, thank you, and again, congratulations, and 
with that, Mr. Chair, I yield back.
    Chairman Smith. Thank you, Mr. Tonko.
    The gentleman from Georgia, Mr. Loudermilk, is recognized.
    Mr. Loudermilk. Well, thank you, Mr. Chairman, and this is 
very exciting. It's a very exciting discovery, and I'm very 
proud that we discovered this here in America. This is the type 
of thing that we have been known for in the past, and I think 
it's large in part not just to investment but to the freedom 
that we have to investigate and explore.
    And again, I see it much like the Apollo program that some 
of the spinoff technologies that we're going to have not just 
from the discovery itself but the tools and the technology that 
goes into the discovery I think is going to benefit future 
generations.
    I've also been impressed with the large audience we've had 
here today, Mr. Chairman. I think this may be one of the 
largest audiences that we've had, and I really appreciate those 
students being here. This is the type of thing that I think 
we're setting the groundwork for future generations.
    In Georgia we've had a little bit of a challenge of 
inspiring our young people to get into science and technology 
career fields. We have some of the world-class research 
institutes right there in Atlanta. We're leading the Nation in 
health IT and a lot of innovations and discoveries but yet our 
biggest challenge has been filling those jobs with innovators 
just seemed to be a lack of inspiration. But I'm becoming more 
encouraged by what I see here and something I did yesterday. On 
my way to the airport, I had the opportunity to stop by one of 
our high schools and notify two students, both high school 
sophomores, that they had won the app challenge that Congress 
had put on. Ryan Cabelli of Kennesaw Mountain High School and 
Alvin Potter of Wheeler High School took technology--they 
didn't develop the technology, the coding language, but they 
saw a need with other students and they took the technology 
someone else had discovered and they put it into a practical 
application called Grade Spar. As they informed me that GPA is 
everything to these students and one of the challenges students 
have is predicting what their GPA is going to be based off of 
their previous grades. So they have actually developed an app 
for your phone that students can put their grades in and they 
can estimate where their GPA is going to be and what they need 
to do, and so it's taking the research others have done and put 
it to a practical application, which I think this next 
generation will be able to do that same thing.
    A couple of questions, though. I'm very interested in the 
technology you're using. I spent 30 years in the IT sector--but 
the technology that you use to actually do these discoveries. 
But first of all, from previous questions, I was very intrigued 
about what you've discovered about gravity, that from what I 
understand, it sounds like there's a lot of properties of 
gravity that's very similar to light, the speed, that there is 
actual waves, and particles. Are we seeing more and more 
relationship between the two the more you discover?
    Dr. Gonzalez. Well, yes, of course. There is a very strong 
relationship between the sky, what we learn about the sky from 
the electromagnetic and the gravitational spectrum. I think one 
of the biggest--I wouldn't say surprise because we are 
expecting it--one of the biggest events that we expect in the 
future is seeing a bright source both in the electromagnetic 
and the gravitational spectrum so that we can learn from the 
matter and the photons in there. That will be amazing. And it 
will happen. It will happen soon enough.
    Dr. Shoemaker. But then on the more fundamental question of 
the similarity of the two different effects, it's true that in 
both cases it's information that travels at the speed of light 
or the speed of gravity as you prefer. In both cases, the 
effect is perpendicular to the direction of propagation of the 
effect. In both cases, as you make antennas longer under the 
conditions of long wave lengths of information, you get bigger 
and bigger signals.
    A basic difference, though, is that a photon is a particle 
that travels in space time. And we looked at space time itself 
as it warped, and so it's a slightly different thing in that 
sense there.
    Mr. Loudermilk. So as we get to the longer tubes, if I may 
ask--I know I'm running out of time--are you already seeing 
the--anticipate even at 4 kilometers you're seeing the 
gravitational pull on your lasers--a slight, somewhat bend of--
--
    Dr. Reitze. Yes, we see actually--so we design our 
instruments so that the light itself--4 kilometers is not a lot 
of distance----
    Mr. Loudermilk. Right.
    Dr. Reitze. --distance for light, and we have to design our 
instruments so that we take into account the curvature of the 
Earth----
    Mr. Loudermilk. Right.
    Dr. Reitze. --so that we can go flat. But what we do see in 
our instruments are the tidal effect from, you know, the moon 
goes around the Earth, the Earth, you know----
    Mr. Loudermilk. Right.
    Dr. Reitze. --the Earth sort of breathes because of the 
tidal effects, and that actually shows up on our detectors. It 
changes the length of our detectors by about 100 microns a day. 
And we actually have to----
    Mr. Loudermilk. Okay.
    Dr. Reitze. We predict it. We can correct for it and we 
feed it back so that we don't have to----
    Mr. Loudermilk. Well, that was kind of my other question as 
far as the calibration factor from seismic activity and having 
the thought about the effect of the gravitational pull on the 
moon. So there is a lot of technology, as you alluded to, just 
to go into the research itself, and I applaud you on these 
great discoveries. Thank you.
    Chairman Smith. Thank you, Mr. Loudermilk.
    The gentleman from Colorado, Mr. Perlmutter, is recognized.
    Mr. Perlmutter. Thanks, Mr. Chair. Just a couple questions. 
I find this so fascinating and so over my pay grade I don't 
know what to tell you. And you four really are inspiring to me. 
You talked about being inspiration to your students. You're 
inspiring to all of us. And thank you for your patience and, 
you know, looking at this and talking about the space time 
continuum and warp speed and worm holes and I don't know what 
else. But just sort of just the basic human question for me is 
like can you describe the first few hours after the detection? 
Who found out about it? How quickly did, you know, word travel? 
Was it as fast as the speed of light? Is that how fast the 
sound was? And just generally how did the scientific community 
individually and as a whole feel about this discovery? And then 
I am just opening up and you can go one at a time.
    Dr. Gonzalez. Yes, let me tell the story. Actually, it's a 
very long story. We had been preparing for discovering 
gravitational waves for a long time, so we have computer 
programs that produce alerts, and we--and those alerts are 
alerts in the control rooms, but we didn't have those alerts 
quite ready yet when these came. So they were producing Web 
pages where codes--which had very smart codes produced by very 
smart people were producing Web pages. And because this event 
happened in the middle of the night in the United States, these 
Web pages were first seen by our collaborators in Europe 
because it was daytime for them. But that's again, the strength 
of having a distributed collaboration. So there was an email 
flurry saying what is this? Who is injecting this now? So it 
took us a while to find out that the detectors were all in fine 
state, this was not a test, this was not a dream, it was a real 
event.
    But then we had a very hard work to vet the signal, to 
convince ourselves that this was a signal. And that took months 
to vet the signal to make sure that everything was okay, that 
all our hundreds of monitoring systems did not produce any 
earthquake, any lightening, anything strange that could have 
caused this, and then to also analyze this event to get all the 
physics and astrophysics out of it, that took months of work by 
many hundreds of people.
    Dr. Reitze. Yes. We in California are usually the last to 
know about anything because we're on the farthest time zone. So 
I got to work--I took my daughter to school and I got to work 
at 7:30 this morning and I read my emails first. That's my 
routine. And I saw a number of emails saying you need to look 
at this. This is serious. And the more I looked at it, the more 
I went wow. This is actually unbelievable.
    And this thing that Gabby pointed out about injections, one 
of the things that we do to test ourselves is we inject 
signals. We can actually wiggle the mirrors to produce the kind 
of signals that I showed you. And we do it sometimes secretly. 
So there was--after people saw this signal, they said to 
themselves, oh, this must be a blind injection. And there were 
only four people in the collaboration and I was one of them 
that knew that this was not a blind injection. So I got a lot 
of emails saying Dave, can you confirm whether this is an 
injection or not? And I would send back, no, this is not an 
injection. And at that point, interest ramped up very 
dramatically. By the end of that day, I think a number of--you 
know, probably the entire collaboration knew we had something 
really hot.
    Dr. Shoemaker. I'd just add a little bit more. I talked a 
little bit about this dream of multi-messenger astronomy where 
you could see simultaneously on the ground with radio 
telescopes or the FERMI satellite and gravitational waves 
coming in all at once. An important necessity for that to work 
is that we be able to identify the signal as soon as possible 
after it is detected. It was 3 minutes after the waves cross 
the Earth that we had a signal that was unambiguous and clear 
that said something has happened here that requires attention.
    For me, it was, again, when I first woke up 3 hours before 
Dave did, I'd been actually working with a close European 
colleague in Germany on just this question of whether or not we 
could perform injections. And we've been pulling our hair out 
because we knew technically we had a problem that we needed to 
solve before we could properly do the injections. So he thought 
only four people knew, but I knew also. It couldn't be an 
injection. We didn't know how to do them at that moment.
    It took only minutes to realize that something had changed, 
but it's taken months for me really to integrate it into my 
vision of things. You work on something for 40 years dreaming 
about the day when the detection will come. It takes months for 
it to finally sink in.
    Dr. Crim. So very quickly, first of all, this gave me an 
opportunity to walk into the Director's office and say I have 
good news for once. But I want to say something about the 
collaboration because, you know, we've watched as this 
information propagated through and our program officers learned 
about it and all. The way the collaboration handled this is a 
model of how you do modern big events in science. The rumors 
were circulating but they vetted the signal, they wrote the 
paper, they had it reviewed. They had it published in a premier 
journal before--they had reviewed in a premier journal before 
they had the press conference announcing the result. That's the 
classy way to do science.
    Mr. Perlmutter. Well, thank you. And I yield back.
    Chairman Smith. Thank you, Mr. Perlmutter.
    The gentleman from Alabama, Mr. Palmer, is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Dr. Reitze, in 2014 BICEP2 experiment team announced that 
they had found evidence of gravitational waves, but the 
observations were later shown to be the result of galactic dust 
and were discredited. How confident are you that this or some 
other type of error is not responsible for the detection of 
gravitational waves in this case?
    Dr. Reitze. Yes, that's actually an excellent question and 
one that we worried very much about ourselves. I think the 
way--first of all, the thing you can say about it is that we 
actually had two different detectors. We had the one in 
Louisiana and the one in Hanford. They're independent. They're 
operated totally independently. They're uncorrelated. They both 
saw the same signal. It had the same characteristic in signal.
    The data that we analyzed from that actually showed that 
the signal was completely consistent. It was found by many 
different methods. There were a lot of other checks that were 
done because, as was mentioned before, there are other things, 
noises that can creep in, so we looked at our detectors and 
convinced ourselves that there was nothing that was perturbing 
our detectors.
    We also did a statistical analysis. Without going into much 
detail, we calculate what's the probability that this could 
actually be false, and how many--if you had to run for how many 
years, would you see an event that looked real, was false? We 
couldn't actually put a bound on that number. It's more than 1 
in 200,000 years.
    That said, we also looked at other things. Could somebody 
have done an injection? We talked about injections. Could 
somebody have, you know, secretly hacked into our computers and 
done this? We checked every path that we could think of and 
even some that we couldn't think of after we thought about it a 
little bit more and convinced ourselves that, no, that was not 
possible either.
    The answer to your question is I think we're very 
confident. I would say this, too. You know, we expect to see 
more of these signals, so we hope that in the next--you know, 
the data that we still have sitting--you know, we're analyzing 
right now that we'll see more of them. And having more of them 
gives you confidence.
    Mr. Palmer. I want to give you somewhat of a follow-up on 
that, and any of you can answer this, and that's the practical 
application of this because, as my colleague Mr. Massie from 
Kentucky and I were discussing, GPS doesn't work without 
relativity. Do you see any practical application of this? And 
I'm not implying that this is not viable for the sake of 
science and science--what would any of you see as a practical 
application?
    Dr. Reitze. Of----
    Mr. Palmer. That doesn't mean my time's up.
    Dr. Reitze. Yes. Of detecting gravitational waves? It's 
hard to see anything in the short-term. Some people, for 
example, thought about you might be able to use them for 
communication because they go through everything. I mean, your 
bodies are being--my body is being bathed by gravitational 
waves right now. But it turns out that to generate them you 
need big huge black holes, so it's hard to see that.
    I think in the short term--and, you know, I feel more 
confident talking about the short term--the things that we'll 
see that will come out of this research are the technology, you 
know, transfers that come from the work that we do to build 
these detectors in computing and optics and lasers, servo 
controls, vacuum systems, things like that.
    Fundamentally, it's hard to see. But again, you know, for 
me this is inspiration because it allows us to see the universe 
in a way we've never seen before. And for all of us, that's why 
we got into science. That's why we like to do it.
    Dr. Crim. I really love the GPS mention that you make 
because it's certainly the case that when Einstein did general 
relativity, he had no idea it was going to help me find a 
Starbucks. And there are remarkable things like that in the 
future. But as I said before, I wish I could tell you which 
one, I think we all do, but they're out there.
    Mr. Palmer. I have to credit Mr. Massie with that question. 
It helps to sit by a physicist from MIT.
    Mr. Massie. Engineer.
    Mr. Palmer. Engineer, okay. Dr. Shoemaker, not long after 
the announcement on February 11, the Indian Cabinet granted 
approval for LIGO-India Project. Can you give us an idea of the 
impact of additional observatories coming online?
    Dr. Shoemaker. Yes. The really wonderful thing about the 
India opportunity is that it's far to the south of all of the 
other existing detectors. We have the Hanford, Washington, and 
Livingston, Louisiana, detectors. There's the Virgo detector 
from Italy, which is in Pisa. There's KAGRA, which is a 
Japanese detector. But if you look from a big distance from the 
Earth, they're all pretty much in a line. And the wonderful 
thing about the India site is that it's to the south of that. 
And that gives us a bigger tripod that we can use to look in 
the sky and try to localize the source of a gravitational wave, 
and it will have a remarkable and unique effect on our ability 
to pinpoint in the sky.
    Mr. Palmer. Thank you, Mr. Chairman. My time is expired.
    Chairman Smith. Thank you, Mr. Palmer.
    And the gentlewoman from Massachusetts, Ms. Clark, is 
recognized.
    Ms. Clark. Thank you, Mr. Chairman and Ranking Member 
Beyer. This is truly just a great hearing and we are so excited 
about the results. And as you said, Doctor, it just really--
this is inspirational science and sort of fulfills our cravings 
as human beings for exploration. But what I find really 
impressive is that--and this has been touched on by some of my 
colleagues--it's really a decade--decades of partnership and 
significant funding, I think 1.1 billion total over many, many 
years going from basic research to building LIGO.
    And what I want to know because I feel this is such a 
success story for us to tell about what it means when you can 
talk to your students and say you can begin, you can end, and 
you can remain on this project, what that means. How do you put 
together a project of this size? How do you keep benchmarks 
with it? How do you manage something that goes on for many 
different people over such a long period of time and end with 
the success that you've had? And I certainly appreciate the 
classy rollout. But I think that, you know, I'm very interested 
in how you do that because I think some of the technology that 
you ended up using you couldn't foresee in the beginning, so if 
you could just speak to that.
    Dr. Reitze. Let me try and start, and I know David 
Shoemaker will also have some, I think, good answers or good 
comments about that.
    First of all, when you get the project--I mean the idea of 
interferometry, you know, goes back to actually the '70s, Rai 
Weiss and even some guys in Russia thought about it. And so the 
question is what you then have to do to make this work. And so 
you write down a list of things that you need to study and 
investigate. You start investigating them using, you know, 
money from the National Science Foundation, what I would call 
individual investigator grants, and then you get to a point 
where you realize that that it could work and that there's lots 
of work to be done but it's more of an engineering. You know, 
you take the ideas that you've tested--you've studied and you 
have to engineer them. And then you get into the project phase.
    And I think one of the things that LIGO--well, first of 
all, LIGO got started--I think it was the first big major 
project that NSF had done, and it had a rocky start to it 
because, well, you know, it was so big. It was a factor of 100 
bigger than anything else had ever done. We'd done prototypes 
40 meter that you--we didn't think of everything. And so there 
was some management changes that had to take place, but 
eventually, we got an organizational--a robust organizational 
structure in place that understands project management, the 
fact that you have budgets, accounts, and things like that. You 
have to track them. You have to make sure--you're given a 
finite amount of money. You have to make sure that you build 
everything you need to build with that finite amount of money. 
You have to understand how everything fits together, system 
engineering.
    So there are a lot of things that we learned and then 
borrowed to make LIGO work. And I think both initial LIGO and 
in particular advanced LIGO was quite successful because we 
take these things that we learn from project management and we 
apply them, too. So it's actually a testament to not only the 
scientists but a lot of businesspeople. We had a lot of 
accountants and things like that working on doing this. So 
there's lots to be proud of here.
    Ms. Clark. And was that a different model, sort of having 
lots of accountants, or was that just continuation of work 
you'd done before----
    Dr. Reitze. Well, no, no, no. It was----
    Ms. Clark. --being on a different scale?
    Dr. Reitze. --a complete--to do big science, you need to 
have an infrastructure that not only includes the scientists 
and the engineers and the students--we had a lot of students 
involved--but you need to have, you know, people that know how 
to track projects. You need to have people that know how to, 
you know, track budgets and things like that. So that was 
something that we figured out once we had to go into the big 
science model of it, and we put together a structure that ended 
up being successful.
    Ms. Clark. Yes.
    Dr. Gonzalez. Let me say that the project model has been 
very successful in this case due to the very good management it 
had, but the human side of this is that, like you were saying, 
there are graduate students whose career in this is in 
research. It's 4 or five years, not 20.
    Ms. Clark. Right.
    Dr. Gonzalez. But they are still interested. They were 
then. I was one of those graduate students in the beginning 
that I knew I wasn't going to be discovering gravitational 
waves in my Ph.D. thesis. I did a thesis on something that was 
going to help the construction of these projects, the 
sensitivity of this detector, and that was exciting enough. 
It's inspiring people to be part of something bigger, and that 
is what inspires our undergraduate and graduate students to 
work for a few years even though some of them have been part of 
the detection now. But many are proud of having been part of 
this in the past, and we are attracting many more.
    Ms. Clark. Wonderful.
    Dr. Crim. May I briefly----
    Chairman Smith. Yes.
    Dr. Crim. --comment?
    Chairman Smith. We are--we do have a time factor involved 
here----
    Dr. Crim. Okay.
    Chairman Smith. --but please go on and----
    Dr. Crim. I----
    Chairman Smith. --respond.
    Dr. Crim. Let me just very briefly go from the inspiration 
to some of the practicalities of doing this. At the Foundation 
we have these remarkable program officers. The collaboration 
that we build is through what's called a cooperative agreement, 
and the--one of the striking things I've learned that I've been 
at the--been at the foundation is how complicated project 
management is. And the program officers, working with the 
people and the project, it's really a hand-in-glove 
relationship. And there's an enormous structure if you're going 
to spend $400 million of the taxpayers' money. And we're 
careful about it, and it involves these close collaborations.
    Chairman Smith. Thank you, Ms. Clark.
    Ms. Clark. Thank you.
    Chairman Smith. The gentlewoman from Virginia, Mrs. 
Comstock.
    Mrs. Comstock. Thank you, Mr. Chairman. And I'd like to 
thank our witnesses so much. It's so exciting to see your 
enthusiasm. And I'm thrilled that we had one of our local high 
schools here. I think we still have some of the students here 
from Oakton High School in Fairfax, and we appreciate them 
being here. And I wanted to ask you, even though we don't have 
that time travel thing that we could do, if for each of you if 
you could go back to being in high school and you were looking 
at this field and you were looking at how someone might get 
engaged and involved in this exciting opportunity and career 
that you all have had an opportunity to do, what would you tell 
them to do today and going forward in their educational 
experiences, their volunteer experiences, you know, where they 
can get internship opportunities and any Web sites or other 
resources that you might provide for the Committee that we 
could share with them or that you might direct them to here 
today if you could speak to that.
    Dr. Shoemaker. Let me just start by saying briefly, this 
field didn't exist when I was in high school, but I think what 
I found was really crucial was to find something I was 
passionate about and just throw myself into it. That was really 
the key for me in being able to focus enough on a topic--you 
know, I was a young and wild one at one point, and it took 
finding something and also finding someone. It wasn't actually 
when I was in high school but when I was in the university that 
I found Rai Weiss, who has remained my mentor for the--all of 
my career, someone who was inspiring to me, somebody who was a 
role model, who looked to me like they understood what was 
important in what we were trying to do and could--was also good 
with a soldering iron. And I think those kinds of things, you 
find somebody that really turns you on. It gives you the focus 
to actually follow through with things that look really tough 
when you start out. Thank you.
    Dr. Gonzalez. Let me say that when I was a high school 
student I began liking science and physics because I liked 
asking questions. So that's what you need to do the most, ask 
questions. Don't shy away from questions. There are no dumb 
questions.
    About material, we do have in our Web site in LIGO.org a 
lot of material, and we also have people, emails of people who 
you can contact to ask any questions, and we are receiving lots 
and lots of questions and we answer them all. And we also have 
some material for teachers to use in their science classes. 
There are also programs organized by the American Physical 
Society for high school like Adopt-a-Physicist so you can ask 
teachers to contact LIGO people, collaboration people to act as 
a consultant and answer questions.
    Mrs. Comstock. So is there like a package we can give to 
our high schools that you----
    Dr. Gonzalez. There's a K-12----
    Mrs. Comstock. --all have?
    Dr. Gonzalez. --packet----
    Mrs. Comstock. Great.
    Dr. Gonzalez. --for students that we have developed, yes. 
And there are a lot more material----
    Mrs. Comstock. Great.
    Dr. Gonzalez. --for teachers and students.
    Mrs. Comstock. Right. Thank you.
    Dr. Reitze. Just to follow up a little bit, one of the 
things that I think is very important more when you get to the 
college level but it can happen at a high school level is to go 
up to a professor, all right, and ask them is there interesting 
research that you're doing that I can get involved with? So all 
of us got started actually doing research as college students. 
You know, we hadn't even decided what we wanted to do yet. And 
even in high school--so at Cal Tech, for example, we have in 
the--just in LIGO alone we take in three or four high school 
students every year, all right, and we give them, you know, a 
pretty well-defined project, and, you know, we mentor them to 
make sure that they get through it. They get exposed to, you 
know, seminars and things like that.
    And I suspect that a lot of universities especially in the 
Washington, DC. area there are a huge number of universities. I 
would imagine that those kinds of things exist here, too. If 
they don't, they're not that hard to set up so----
    Dr. Crim. I want to associate myself with the comment about 
passion. I think being passionate about science is something 
that's driven us all.
    As far as this research comment is an important comment, 
and the Foundation supports research experiences for 
undergraduates to just provide that kind of an opportunity. 
There are programs that reach down into the K-12.
    I want to make one brief comment, though, about how your 
question relates to how we function as a nation. I am a child 
of Sputnik. That event and the focus on science directed many, 
many people for more than a generation into science. And the 
Nation made a huge commitment to our being the global leader in 
science. Those kind of moments are the things that will invite 
these folks to come in.
    Mrs. Comstock. Thank you. I appreciate that passion and for 
the students, these are your role models that you are looking 
for in the science field. If they look and sound like this, 
grab them. Thanks.
    Chairman Smith. Thank you, Mrs. Comstock.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    What an exciting topic and thank you so much for holding 
this hearing today so we can learn more about this very 
exciting research. And I wanted to align myself with the 
comments of Mr. Tonko and others about the value of taking 
risks and the value of this sort of persistence and 
perseverance over the years and sometimes decades.
    I want to take just a moment to acknowledge my alma mater, 
the University of Oregon, for their efforts in this discovery. 
The university was one of the founding groups of the LIGO 
scientific collaboration. And I know that the university 
scientist Dr. Robert Scofield participated in testing the 
detectors at the site in Livingston, Louisiana, on the day that 
the gravitational wave was recorded.
    And almost simultaneously, the LIGO's partner site in 
Hanford, Washington, where University of Oregon graduate 
students were stationed, registered the wave. University of 
Oregon is responsible in part for the environmental monitoring 
and really investigating that the wave was in fact a 
gravitational wave. When anything happens in the Northwest, we 
think it's an earthquake, right, so they in fact confirmed that 
this was a gravitational wave.
    And I know Professor Frey as well, Raymond Frey, who leads 
the university's physics department and their team on the LIGO 
project--that includes five Ph.D. students, a post-doc, and 
three faculty members. So I'm proud of the University of 
Oregon. I know that their report really helped the scientists 
with their confirmation.
    One of the problems with being one of the last Members to 
ask a question is that a lot of the topics have already been 
touched on. I was actually in an Education hearing with the 
acting Education Secretary, so I wanted to ask to--if you could 
follow up a little bit. I know the question was asked about how 
we could get materials to teachers in classrooms, but I also 
was wondering if a researcher who's unaffiliated with the LIGO 
collaboration has access to the data.
    Dr. Gonzalez. Yes. We have--we--in LIGO.org you can find 
the actual data, one hour of data before and after the 
detection. And people have already downloaded and----
    Ms. Bonamici. Terrific.
    Dr. Gonzalez. --are analyzing it. We are going to--we have 
made the data from initial LIGO runs. They are also available 
and people have been looking at that. And we will make the 
formats of data that we have taken available to the public in 
the future. So we are very committed to open access and the 
public access to the data.
    Ms. Bonamici. Terrific. And I really appreciate all the 
comments that I've heard all of you make about the importance 
of engaging especially students and the internship 
opportunities and how do we help students follow their passion? 
I know Mr. Loudermilk was talking about the App Challenge. My 
office did that as well. I had Adam Barton from Sunset High 
School win the App Challenge. He also happens to be a very 
talented pianist, which is confirming my theory that 
integrating the arts into STEM results in more creative, 
innovative people.
    Do any of you have any sort of new approaches to bringing, 
you know, first generation students, for example, and students 
from underrepresented groups into the STEM fields?
    Dr. Gonzalez. Yes. We are very committed to increasing the 
diversity not just in our collaboration but in general in the 
scientific community. We have been working very closely with 
the National Society of Hispanic Physicists and Black 
Physicists for including--for affiliating students and teachers 
from colleges with large underrepresented----
    Ms. Bonamici. Excellent----
    Dr. Gonzalez. --minorities. We work with several of those 
universities like Southern University, University of Texas, Rio 
Grande Valley. Thank you for that work. It's important to get 
them interested and also to retain them by having positions and 
having good working environments.
    And then finally, I know it's been touched on this morning, 
but could you expand a little bit on the importance of 
international collaboration? I know that there was a lot going 
into this, but we also talk about this when we talk about, you 
know, space research. You know, we have jurisdiction over NASA, 
for example. Can you talk about the importance of the 
international collaboration with LIGO and this discovery?
    Dr. Gonzalez. Yes. We are very proud of having had very 
international effort on this. It's been led by the United 
States. The United States has been a leader in this effort both 
within the scientific--the LIGO scientific collaboration, which 
is an international collaboration. We have been living this in 
the United States but also living--uniting all the other 
collaborations, getting agreements with all the other 
collaborations so that we don't compete with each other but we 
collaborate for better science. We collaborate in forming a 
network.
    And that has been very important and very efficient, too, 
because we have recruited many students and scientists from 
other countries to help us here in the United States, for 
example.
    Ms. Bonamici. That's a great model for collaboration. And I 
see my time is expired. I yield back. Thank you again, Mr. 
Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    That was very deftly done to include the University of 
Oregon to the extent that you did.
    Ms. Bonamici. It is my alma mater.
    Chairman Smith. Totally understandable.
    Thank you all for being here today. This was really a 
special and even unusual hearing just because there was so much 
to learn and so much excitement about a new discovery. It's 
also nice, I think, from our point of view just to see how much 
mutual support there is among you all, how much collaboration, 
even camaraderie perhaps. So I appreciate that. We had a full 
house when we began today. They've trickled out over time, but 
it was nice to start off with every seat in the room occupied 
and a tribute to what you all have done. So thank you all very 
much.
    Dr. Gonzalez. Thank you all for holding this hearing.
    Dr. Crim. Thank you, Mr. Chairman.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
